CERTIFICATE OF SERVICE
NO. TBD
Montville Township School Bd. of Educ.
Petitioner(s)
v.
Zurich American Insurance Co.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
MONTVILLE TOWNSHIP SCHOOL BD. OF EDUC. PETITION FOR WRIT OF CERTIORARI, by mailing three
(3) true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the
following addresses:
Lorraine M. Armeneti
Coughlin Duffy, LLP
350 Mount Kemble Avenue
P.O. Box 1917
Morristown, NJ 07962
973-267-0058
larmenti@coughlinduffy.com
Counsel for Zurich American Insurance Co.

Lucas DeDeus

October 24, 2019
SCP Tracking: Klein-629 Parsippany Road-Cover White

